Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  MEDICARE’S OVERSIGHT                 OF 

       MANAGED CARE: 


 MONITORING    PLAN PERFORMANCE




                  JUNl3 GIBBS BROWN
                   Inspector General

                       APRIL 1998
                     OEI-01-96-00190
                         OFFICE       OF INSPECTOR             GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation        and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

Region                                                                             Headauarters

Russell Hereford, Ph.D., Project Leader                         Stuart Wright, Program Specialist
Nicola Pinson
Kenneth Price




      To obtain copies of this report, please contact the Boston Regional Office at 6 17-565- 1050
                                        or by Fax at 617-565-3751

         Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE                        SUMMARY
PURPOSE

To assess how the Health Care Financing Administration is responding to the need for effective
oversight of the growing number of managed care plans that have Medicare contracts.

BACKGROUND

The scope and speed of growth in Medicare managed care places stress on traditional tools for
oversight. As of February, 1998,439 plans counted over 6 million beneficiaries as members, a
90 percent increase since December 1994.

Ideally, managed care’s capitated payment leads to innovation in providing cost-effective, high
quality health care. However, the economic incentives of operating within a fixed budget may
encourage plans to limit access to needed care in the interest of increasing profits. This incentive
means that the Health Care Financing Administration (HCFA) has a particular responsibility to
ensure that beneficiaries’ access to services is protected. The 10 HCFA regional offices carry out
direct oversight of managed care plans with a site visit conducted every 2 years.

The HCFA has begun three important initiatives that may yield information useful to oversight of
managed care plans: (1) requiring plans to report on measures from the Health Plan Employer
Data and Information Set (HEDIS); (2) preparing a national, independently administered,
beneficiary satisfaction survey, the Consumer Assessment of Health Plans Study (CAHPS); and
(3) opening discussions with national accrediting organizations to assess to what extent HCFA'S
and these groups’ standards overlap, and whether collaboration in oversight would be productive
and appropriate for Medicare.

Our review utilizes data from site visits to three HCFA regions: interviews with HCFA staff
responsible for oversight of managed care plans in the other seven regions, and representatives of
managed care plans and beneficiary advocacy organizations. We also reviewed and analyzed
HCFA documents, reports, data and the monitoring guide used to assess managed care plans’
performance.

FINDINGS

The HCFA’S primary oversight approach--a site visit that relies on a rigid monitoring
protocol--has fundamental limitations as a way of overseeing managed care plans’
performance.

       The monitoring review is not structured to keep pace with the rapidly evolving managed
       care market. It does not address delegation of administrative and clinical functions, or
       mergers between health plans.
       The review protocol has limited flexibility to focus the monitoring visit.

       The 2 year interval between monitoring reviews provides only an intermittent snapshot of
       a plan’s operations.

Overall, HCFA is not taking widespread advantage of available data that could be used for
ongoing, systematic oversight of plans.

       The HCFA is making only limited use of the information it gathers in these reviews for
       national program management. The agency does not aggregate the results of the reviews
       to continuously monitor plan performance, national trends, or variations among regions.

       Many regional offices do not routinely track beneficiary inquiries and complaints as a
       means to identify problematic situations in managed care plans.

       The HCFA does not routinely analyze its own data, such as disenrollment rates or number
       of appeals, to identify trends that raise questions about plan performance.

The HCFA is missing opportunities    to capture additional   data that could assist the agency in
monitoring plans’ performance.

       The HCFA is not requiring plans to submit basic operational data, such as grievance and
       appeals data, that could be used to assessthe delivery of services to Medicare
       beneficiaries.

       The HCFA does not have a formal system in place for receiving input about managed care
       concerns from the beneficiary advocacy community. The HCFA provides funding for
       Insurance Counseling and Assistance programs, but does not require these organizations
       to report routinely on managed care issues.

RECOMMENDATIONS

We recommend that HCFA revise the processes that it uses to monitor the performance          of
managed care plans.

       The HCFA'S oversight processes should pay greater attention to capturing information that
       reflects plans’ performance in the constantly evolving managed care market.

       The HCFA'S oversight processes should provide greater flexibility to target reviews on the
       specific characteristics of individual plans.

We recommend that HCFA take better advantage of data that are currently available to the
agency as a way of monitoring plan performance on an ongoing basis. Toward that end,
we believe that the agency should:




                                                ii
        - immediately establish and implement a centralized information system that aggregates
        the results of plan monitoring reports in electronic format.

        - immediately establish and use a system to track beneficiary inquiries and complaints
        that the agency receives regarding managed care.

        - provide monthly reports to regional offices on enrollment, disenrollment, and rapid
        disenrollment.

        - require that the Insurance Counseling and Assistance programs report routinely to
        central office and to regional offices on managed care issues.

        - take full advantage of new data that it is collecting, such as the HEDIS measures and
        consumer surveys, for oversight purposes.

        - require health plans to routinely submit data on appeals and grievances.

COMMENTS ON THE DRAFT REPORT

The Health Care Financing Administration      provided comments on the draft report.   We provide
our response to these comments in italics.

The agency concurs with the intent of our recommendation to revise its monitoring processes.
The HCFA indicates a number of actions that it is taking to address the issues that we raise:

       - a regional initiative to pay specific attention to ways that managed care organizations
       delegate such functions as utilization review and medical coverage determinations to their
       contracted provider networks.

       - actions to evaluate health plan mergers and acquisitions,

       - revisions in current monitoring process in order to establish better methods for targeting
       plan performance issues.

We believe that these actions are a positive step forward.   We will continue to work with HCFA to
monitor implementation, progress, and results.

The HCFA concurs with our second recommendation to make better use of available data. The
agency cites a number of activities in this regard. These developments are encouraging; however,
we also wish to reiterate some concerns we have:

       - a Health Plan Monitoring System for aggregating and reporting information from
       monitoring reviews. We encourage HCFA to use these data for ongoing analysis ofplan
       performance, not just for scheduling reviews.



                                                 . ..
                                                 111
      - “Medicare Compare,” a health plan comparison chart on HCFA'S home page. As yet,
      Medicare Compare is limited to a comparison of plan coverage, benefits, andpremiums.
      It does not include data on performance or quality. We also urge HCFA to be more
      proactive and include information on appeals and grievances in Medicare Compare.

       - a new system to track beneficiary inquiries and complaints. In our draft report, we had
       recommended that the agency establish and use regional systems to perform this task.
       Because, as the agency notes, a single system should increase data comparability among
       the regions, we have revised our recommendation to reflect that approach.

We also added explanatory text in response to technical comments that the agency provided.




                                               iv
                                                                                                                                            PAGE 

EXECUTIVE         SUMMARY 


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..l 


FINDINGS 


 l   Limitations in the monitoring review ...........................................                                                                  5


 0 Available data not being used for oversight ......................................                                                                  7


 0 Additional data not being collected ...........................................                                                                10 


RECOMMENDATIONS                      ......................................................                                                       12 


COMMENTS           ON THE DRAFT REPORT ........................................                                                                   16 


APPENDICES 


A: Agency Comments on the Daft Report ........................................                                                                   A-l 


B:Endnotes       ..............................................................                                                              ..B- I 

PURPOSE

To assesshow the Health Care Financing Administration is responding to the need for effective
oversight of the growing number of managed care plans with Medicare contracts.

BACKGROUND

Growth of Medicare Managed Care

As of February 1, 1998,6 million Medicare beneficiaries-- 14 percent of the total--were enrolled
in 439 managed care plans that participate in Medicare, up from 3.1 million in 244 plans in
December 1994. Medicare paid almost $26 Billion to managed care plans for fiscal year 1997,
up from $19 Billion for all of fiscal year 1996. By all indications, this rate of growth will
continue. Thirty one plans are seeking initial approval for Medicare contracts, and 29 plans are
seeking to expand their service areas.

Not only has the overall scope of Medicare managed care grown, but expansion has occurred in
new areas of the country. For many years, the Western States were the bastion of managed care,
both generally and within the Medicare program. Now all regions of the nation are experiencing
rapid growth in Medicare managed care plans.

In addition, Medicare managed care plans increasingly are evolving from staff models to more
loosely organized provider networks, such as independent practice associations (IPAS). Since
December 1994, the number of [PAS type plans grew by 70 percent from 133 to 228 plans in
August 1997, and group model plans increased by 40 percent from 79 to 111. In contrast, staff
model plans grew from 29 to 3 1 plans.’

New Challenges to HCFA Oversight

The scope and speed of these changes place stress on HCFA'S traditional tools for performing
oversight. The sheer increase in the number and complexity of plans will continue to put even
more pressure on staff and budget resources. Staff will need to acquire skills and knowledge that
enable them to assess new types of health care delivery systems with different economic
incentives. They will need to remain closely attuned to local health care markets.

In Medicare’s traditional fee-for-service program, health care providers deliver services and
receive reimbursement for each specific service. Managed care introduces a fundamental shift
from the fee-for-service program in which delivery and finance are separate activities. Managed
care plans receive monthly capitated payments with which they manage both delivery and
financing of services.

Medicare supports two primary types of managed care plans, defined by the method under which


                                                1
the plans are paid. Riskplans are paid a monthly per capita premium set at 95 percent of the
projected average expenses for fee-for-service beneficiaries in a given county. Risk plans
assume full financial risk for all care provided to Medicare beneficiaries. As of August 1997, 88
percent of Medicare beneficiaries in managed care were in risk plans. These plans made up 292
of the 398 managed care plans participating in Medicare. Costplans are paid a pre-determined
monthly amount per beneficiary based on a total estimated budget. Adjustments to that payment
are made at the end of the year for any variations from the budget. Beneficiaries in cost plans
may also obtain Medicare-covered services outside the plan without limitation.*

Ideally, capitation leads to innovation in providing cost-effective, high quality health care.
However, the economic incentives of operating within a fixed budget may encourage plans to
limit access to needed care in the interest of increasing profits. This economic incentive to limit
care means that HCFA has a particular responsibility to beneficiaries to ensure that their ability to
access services is protected in the managed care environment. Yet compared with the fee-for-
service sector, the agency receives only limited data from managed care plans. As a
consequence, HCFA may have difficulty in assessing the extent to which plans limit access to and
utilization of services. For example, HCFA receives beneficiary-level encounter and utilization
data and profiles of individual provider practices under the fee-for-service system; these data are
not made available to HCFA in the managed care system.

THE HCFA ‘s Current Approach to Monitoring       Managed Care

The HCFA is responsible for ensuring quality of and access to care provided to Medicare
beneficiaries and for safeguarding the program from fraud and abuse. Within 6 to 9 months after
HCFA awards a contract to a health plan, staff from the HCFA regional offices conduct an initial
site visit to assessthe plan’s progress. Subsequent on-site reviews are performed every 2 years,
unless some type of serious problem is identified or suspected in the interim.

The staff use a standard contractor performance monitoring protocol that addresses Federal
statutory and regulatory requirements in 15 areas. The areas examined include how well the plan
processes beneficiary enrollments and disenrollments, the plan’s structure for quality assurance,
how the plan processes grievances and appeals, and the plan’s marketing practices. If HCFA
determines that a health plan is out of compliance with requirements in any area, the plan must
develop a corrective action plan (CAP), which the regional office must approve. The CAP
describes actions the plan will take to come into compliance with Federal standards.

THE HCFA Reorganization

Until recently, HCFA'S Office of Managed Care (OMC) had central responsibility for guidance of
the agency’s managed care program. The 10 HCFA regional offices carry out direct oversight of
managed care plans, with support from the central office. (Our companion report Medicare’s
Oversight of Managed Care: Implications for Regional Staf$ng, OEI-0 l-96-00 19 1, addresses
how HCFA'S regional offices are staffing for oversight as the number of plans grows.)

Effective July 1997, HCFA reorganized its internal structure. Under the new organizational



                                                  2

structure, managed care functions are part of the new Center for Health Plans and Providers.
This reorganization may well affect how the managed care program is administered in the central
office and in the regions.

Recent HCFA Initiatives

The HCFA has recently undertaken three important initiatives that, in the long run, may provide
information useful to oversight of managed care plans.

  0	   HEDIS Effective January 1, 1997, HCFA requires health plans to report on performance
       measures from the Health Plan Employer Data and Information Set (HEDIS) relevant to
       the managed care population. These measures include a functional status assessment for
       seniors, intended to provide longitudinal data on plan-specific outcome measures. The
       HCFA intends to use these measures to help beneficiaries choose among health plans,
       identify quality improvement opportunities, and identify areas that warrant further review
       and scrutiny.

  0	   CAHPS Effective January 1. 1997, HCFA requires health plans to participate in a
       national, independently administered, Medicare beneficiary satisfaction survey, the
       Consumer Assessment of Health Plans Study (CAHPS). The HCFA plans to publish results
       of this survey to help beneficiaries select among health plans.

  0	   Enhanced Review The HCFA has initiated discussions with three national organizations
       that accredit health plans--the Joint Commission on Accreditation of Health Care
       Organizations (JCAHO), the National Committee on Quality Assurance (NCQA), and the
       Utilization Review Accreditation Commission (URAC). The goal of this effort is to assess
       whether, to what extent, and in what areas HCFA'S standards overlap with these groups’
       standards, and to determine whether collaboration in oversight practices would be
       productive and appropriate for Medicare.

METHODOLOGY

We utilized four sources of data in this inspection.

First, we gathered extensive information from site visits to three HCFA regions: Region 6
(Dallas), Region 9 (San Francisco), and Region 10 (Seattle). During these visits we conducted
structured interviews with staff in the regional offices, and with representatives of beneficiary
advocacy organizations, managed care plans, and State governments. Our visits included a
review of internal HCFA documents and reports from these regions.

Second, we conducted structured telephone interviews with staff responsible for managed care
oversight in the other seven HCFA regional offices. We also interviewed staff from the HCFA
Office of Managed Care in Baltimore.

Third, we gathered additional information on the managed care oversight process through


                                                  3

structured telephone interviews with representatives of beneficiary advocacy groups and
managed care plans. In total, we interviewed individuals associated with 11 managed care plans
and 13 beneficiary advocacy organizations.

Fourth, we reviewed and analyzed HCFA documents, reports, and data, as well as the contractor
monitoring guide that the agency uses to assessthe performance of Medicare managed care
plans.

We conducted our review in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                               4

THE HCFA'SPRIMARYOVERSIGHTAPPROACH--ASITEVISITTHATRELIESONARIGID
MONITORINGPROTOCoL--HASFUNDAMENTALLIMITATIONSASAWAYOFOVERSEEING
MANAGED CAREPLANS'PERFORIMANCE.

  a	   The monitoring review is not structured       to keep pace with the rapidly evolving
       managed care market.

The rapidly changing managed care environment is placing stress on the traditional monitoring
approach. The monitoring review addresses issues pertinent to these changes only in marginal
ways, an omission that staff we interviewed saw as a serious shortcoming. One staff member
who has been working in this area for several years summarized this concern when he told us,
“The industry is developing faster than we can keep up.”

Two significant types of changes are occurring in the managed care market that make addressing
these issues critical. First, the increase in network model delivery systems is often accompanied
by a delegation to medical groups of administrative functions, as well as delivery of health
services. Delegated functions may include quality assurance, utilization review, and claims
review and payment. The monitoring review does not address the nature or implications of these
arrangements, such as the adequacy of training for contracted medical groups, how contracts are
priced, what the contracts cover, or how the plan pays claims. For example, staff in the regions
identified a need to review cases from delegated providers during their review, or to evaluate
how delegated quality assurance standards are enforced by the plan. In theory, the plan itself is
accountable for all functions, whether delegated or carried out by the plan itself. The protocol,
however, does not lend itself to this type of a review.

A second managed care trend is the spate of mergers and affiliations. The implications for
HCFA'S oversight are unclear, but the agency has little input into decisions about mergers. The
issues that these mergers raise are important. One staff member summarized the difficulties in
dealing with a pending merger as follows: “We are dealing with two separate organizations, with
three risk contracts, that are now trying to merge. There are corrective action plans in place for
each of the plans, each CAP in different areas. Their goal is to be a regional delivery system--but
how should our office address this merger and the problems in each plan? Which entity do we
examine for claims processing, which one for appeals.3 How do we have one plan with existing
problems take over management for the others?”

  0    The review protocol has limited flexibility    to focus the monitoring   visit.

The on-site review relies on a broad brush, one-size-fits-all protocol that is the same for all
managed care plans. The protocol does not differentiate between staff model, network model, or
group model plans. In fact, regional staff told us that the protocol is based on the staff model
HMO, even though that model comprises fewer than 10 percent of managed care plans with
Medicare contracts. The review does not differentiate between plans paid on a risk basis versus
those paid on a cost basis, despite fundamental differences in the financial incentives of the two


                                                 5
payment mechanisms.’ In addition, the review is the same for small plans as for large plans, and
the same for plans that have been operating for many years as for new plans.

HCFA regional staff consistently told us that the protocol’s breadth makes it difficult to complete
the review during the time allotted for visits to plans. Case reviews, examination of documents,
and interviews with staff and practitioners consume the full three-to-four days that they spend on
site. It is apparent that the staff often must make decisions about prioritizing what aspects of a
plan’s operation they examine. Our concern is that these decisions may be made without a great
deal of explicit guidance. Regions report that they use the protocol as a framework for further
inquiry into specific areas. Staff in several regions told us that they look at available data about a
plan’s operations prior to a site visit. However, the information available varies across regions
and across plans; it often is not maintained in a systematic format that allows for meaningful
analysis and identification of problem areas.

During our field work, we identified three primary concerns about focusing reviews more
narrowly. First, because there are no ongoing performance indicators, staff expressed some
discomfort about a more targeted review. These staff raised concerns that less comprehensive
reviews might miss problems in plan performance. They cautioned that analyzing additional
data, such as results from NCQA certification reviews or plan internal management reports, would
be needed to identify areas of potential concern to focus on while on site.

Second, site visits to plans comprise a major use of regional office resources. Extending the visit
or conducting additional visits is unappealing from a budgetary point of view. Conversely, more
targeted visits could allay this concern. by making more effective use of the time actually spent
on site.

Third, the growth in Medicare managed care plans has arrived only recently in many HCFA
regions. However, many of the staff involved in monitoring managed care plans are new to this
field. Learning how to identify and focus on specific problems may require a knowledge base
and comfort level that will come only with time, training, and experience.

Staff in one region provided us with an example of how they use data to target their review,
which is illustrative of the role that this information can play. In an ongoing review of member
disenrollment data, they found one plan with a very high rapid disenrollment rate. This finding
led the office to focus an on-site review on the plan’s sales practices and incentives. They
reviewed in detail the plan’s oversight of its sales representatives, how the sales representatives
were paid (e.g., percentage of compensation based on commission versus salary), the plan’s
records on number of disenrollees by sales representative, and information from personnel files,
such as progressive disciplinary actions for sales representatives. As a result of this review, the
staff was able to uncover problems with the plan’s marketing practices and require it to take
corrective action.

  a	   The 2 year interval between monitoring         reviews provides only an intermittent
       snapshot of a plan’s operations.




                                                 6

Staff in HCFA regional offices and representatives of managed care plans agreed that an on-site
presence is a critical element of effective monitoring. From our discussions with HCFA and plan
officials, we identified three key1reasons for conducting site visits. First, the visits require direct
examination of beneficiary case records, plan documents, and files. Second, the visits provide an
opportunity for face-to-face interaction with plan staff and practitioners, including a formal
opportunity for HCFA staff to respond to questions and concerns that the plan may have. Third,
staff told us that site visits provide an important sentinel effect on plans, reaffirming the
importance of complying with Medicare regulations.

We identified three limitations with the 2 year interval between visits. First, as part of their
review, HCFA staff examine a sample of beneficiary cases to assess how well the plan complies
with Medicare requirements such as notifying beneficiaries of appeal rights, and how quickly and
accurately the plan enrolls and disenrolls members. The review, however, selects cases only
from the most recent 6 months. The case review misses the first 18 months of activity following
the previous visit. Second, Medicare renews its contracts with plans annually, meaning that at
least one renewal will have taken place without an in-depth review of plan operations.J Third,
the plan itself may have changed significantly since the renewal. For example, we examined
enrollment data for 127 plans operating in December 1994 and December 1996. We found an
overall growth in these plans of 73 percent in that 2 year period. Among 92 plans with at least
 1,000 members in December 1994, two plans had 1O-fold increases in their membership over that
period, and 37 plans at least doubled their enrollment.

To be sure, HCFA regional office staff do have ongoing contact with the plans between the
biennial site visits. This contact includes interacting with plans to answer beneficiary inquiries
and reviewing plan marketing and sales materials. As a result, staff have a sense and a general
subjective impression about plan operations. However, the biennial site visit remains the only
formal mechanism through which HCFA assessesplan compliance with Medicare requirements.

OVERALL, HCFA IS NOT TAKING WIDESPREAD ADVANTAGE OF AVAILABLE                   DATA THAT COULD
BE USED FOR ONGOING, SYSTEMATIC OVERSIGHT OF PLANS.

  l    The HCFA is making only limited use of the information         it gathers in the on-site
       reviews for national program management.

Following each review, regional office staff prepare a report that describes their findings and
specifies areas in which the plan did not meet Medicare requirements. The regional office sends
this report to the plan and to the HCFA central office.

Staff from both regional and central offices told us that these reports are filed away after only
limited review of the contents. The agency does not aggregate the results of the reviews in a way
that could provide benchmarks on individual plan performance, national trends, or variation
among regions.

Only four regional offices were able to provide us with aggregate information on reviews
conducted in 1995 and 1996. We reviewed these data, based on 76 monitoring visits to managed


                                                  7

care plans, to provide examples of how HCFA could use data from these reviews to identify issues 

that warrant further investigation. 


First, the information can inform HCFA nationally about areas in which plans need to improve 

their understanding of Medicare requirements. The HCFA can then use this information to 

identify specific substantive Medicare requirements that plans fail to meet consistently. The 

agency could then develop a technical assistance effort to bring plans into compliance. For 

example, we found that between 60 and 84 percent of the plans in each of the four regions did 

not meet Medicare requirements for processing beneficiary appeals, considered one of the key 

consumer beneficiary protection mechanisms in the program. The failure of so many plans to 

comply with these provisions strongly suggests that HCFA needs to address appeals processing in 

a conscientious manner to ensure that plans are complying with these requirements.’ 


Second, information from these reviews can help the agency assess how well its protocol is 

working, and where improvements might be made. For example, we found that only 8 percent or 

fewer of plans did not meet Medicare standards for utilization management. Examining these 

data nationally could lead HCFA to question (a) whether the protocol element does not adequately 

address utilization management; (b) whether regional office staff do not know how to probe into 

issues concerning utilization management; or (c) whether it is even necessary to review 

utilization management on a routine basis, because virtually all plans meet the requirement. 


Third, nationally aggregated data would help HCFA identify regional variation among its own 

offices, as a way of identifying regions in which technical assistance is warranted. We found 

substantial variation among the four regions. For example, one regional office found no plans 

out of compliance with grievance processes; another office found 53 percent of plans out of 

compliance. Although one explanation could be regional variation in the actual performance of 

plans, there is also the very real possibility that the knowledge and skill levels of the different 

regional office staff vary substantially in their ability to identify this deficiency. 


 0     Many regional offices do not routinely track beneficiary inquiries and complaints as
       a means to identify problematic situations in managed care plans.

Responding to beneficiary inquiries about managed care comprises a major activity of regional
office staff. These inquiries include general questions about managed care and how it relates to
fee-for-service Medicare, as well as specific complaints about the services provided or denied by
a particular plan, and confusion with plan policies, provider networks, service areas, and other
nuances of managed care.

Staff in one region summarized the significance of this interaction when they told us, “The most
important piece of monitoring is the beneficiary calling us.” The volume of inquiries is quite
large. Staff in one region told us that they spend between 30 and 50 percent of their time on
inquiries. In another region, staff estimated an average workload of more than 100 inquiries each
week, and a third region told us that they received over 2,200 inquiries in 1996. Some regional
managed care offices maintain a full-time staff unit dedicated to beneficiary case work.




                                                 8

The HCFA developed the Beneficiary Inquiry Tracking System (BITS) some years ago, yet only
four regions are using it. Despite the value and number of beneficiary inquiries, many regional
offices do not track this information according to specific issues raised or particular plans cited.
Regional offices’ primary complaint about BITS is the cumbersome nature of the system. The
BITS does not interact with other HCFA systems and, as a result, is very slow and time consuming.
One staff member (whose office had abandoned BITS) estimates that it takes 2 to 5 minutes
simply to access the system and enter a complaint.

Our concern is that the other six regions lack an alternative method to systematically keep track
of and trend the types of inquiries that they receive according issue and plan. Tracking
beneficiary concerns in a systematic and ongoing way could inform HCFA about managed care
plans’ policies, programs, or other issues that the agency may need to address. Plan-specific
information could inform the staff about particular concerns in a plan that the monitoring process
should address.

The staff from one regional office that uses BITS provided examples of its usefulness. They cited
a comparison of two plans, each with approximately the same numbers of beneficiary inquiries,
even though one plan was three times the size of the other. In other words, the rate of inquiries
was three times as great in the smaller plan, leading the staff to keep a closer watch on that plan.

 0      The HCFA does not routinely analyze its own data, such as disenrollment rates or
        number of appeals to identify trends that raise questions about plan performance.

Data collected by HCFA on enrollment, disenrollment, and appeals are not in themselves
sufficient to make determinations about a particular plan’s performance. These data can,
however, serve as part of an early warning system, and provide information which the regional
staff can use to raise questions about and probe deeper into a plan’s performance. For example,
we previously found that disenrollment rates, adjusted for annualization of new HMOS and
administrative disenrollments, can provide an early alert of problems among Medicare risk
HMOS.~ Rapid disenrollment patterns may be an even more striking indicator of dissatisfaction,
i.e., those beneficiaries who disenroll early in their membership in a plan.

We identified three primary constraints on making effective use of these data for monitoring
purposes: First, it is up to the regions to analyze and use these data. We found that a number of
the regional offices lack the capacity to carry out these functions.’ Even where the regions are
comfortable with analyzing data, we found different definitions, particularly in the area of rapid
disenrollment across the regions. In one region, the denominator was the entire membership
population of the HMO; in other regions the denominator was only those who had enrolled in the
previous 3 months. Using the former definition, one is given the impression of a much lower
rapid disenrollment rate than the latter definition provides.

Second, regional staff raised concerns about the incompatibility of the HCFA mainframe computer
systems and regional offices’ personal computers and windows-based applications. This problem
is evident in the region’s reluctance to use the BITS system. It also affects how regions access and
use data from other HCFA data systems, such as the Managed Care Option Information (MCCOY)


                                                 9

System, without reentering the data themselves, or without having direct access to these data. To
be sure, the Medicare Transaction System holds promise for improving this situation, but its
deployment is far off and yet to be tested.

Third, the staff raised concerns about the adequacy of data the regional offices receive from the
Center for Health Dispute Resolution (CHDR), HCFA'S contractor that makes final determinations
on appeals. These staff reported that they receive detailed information only on those appeals
decisions that are decided in favor of the beneficiaries. They also receive aggregate data on rates
of appeals and rates of appeals ruled in favor of the beneficiary. Staff told us that they would
find additional data useful for oversight purposes. These data could include:

  b    Timeliness of plans’ reconsideration submissions.

  b    Specific cases that have been pending longer than 60 days.

  b	   Specific issues involved (e.g., are they all emergency visits? Who makes the denial
       decision?).

THE HCFAISMISSINGOPPORTUNITIESTOCAPTUREADDITIONALDATATHATCOULDASSIST
THEAGENCYINMONITORINGPLANS'PERFORMANCE.

  0    The HCFA is not requiring plans to submit basic operational data, such as grievance
       and appeals data, that could be used to assess the delivery of services to Medicare
       beneficiaries.

Regional office staff with whom we spoke expressed frustration at not having more data
available from managed care plans on a routine basis. If a plan’s operation deteriorates after a
review is completed, there is no guarantee the regional office will become aware of it before the
next review. The HCFA has begun to require submission of HEDIS and CAHPS data, beginning in
1997, and the agency plans to publish summaries of this information as a way of helping
beneficiaries choose among health plans. When these data become available, HCFA staff could
use them for ongoing oversight of plan operations.

Determining whether or not to require additional data from plans, and what elements to include,
would be up to HCFA nationally. In at least one region, the office is working with plans to submit
quarterly data in an electronic format. However, staff elsewhere told us that requests for
operational data from plans would need to be made an explicit condition of their contract with
Medicare in order to avoid resistance by plans.

Managed care plans maintain sophisticated management systems to track information on a wide
range of indicators, including beneficiary complaints, claims data, information on the provider
network, and utilization data that could be useful to HCFA for oversight purposes. Staff from
plans told us that they view contact with HCFA around these types of data as a chance to learn and
correct problems as they occur rather than after months of mistakes. As staff at one health care
plan told us, “It isn’t enough for HCFA to receive the data and come out every two years. They


                                                10 

need to give us continuous feedback as a way of improving our practices.”

Staff in the regional offices told us that the following types of data would be useful in their
ongoing oversight of plan activities:

        b	     Denials of payment and service: Number of initial denials, number appealed,
               number resolved internally, timeliness for resolution, issues involved in cases.

        b      Grievances: Number of grievances, timeliness of resolution, issues involved.

        b	     Changes in provider networks: Monthly updates of physicians, hospitals, medical
               groups and other providers who have joined or left the network.

        b      Contract data: Number of contracted providers, types of arrangements.

        b	     Internal customer service data: Number of inquiries, telephone response rates and
               times, issues raised.

        b      Provider claims processing: Timeliness, denial rates.

  0    The HCFA does not have a formal system in place for receiving input about managed
       care concerns from the beneficiary advocacy community.

The HCFA funds beneficiary outreach services through grants to Insurance Counseling and
Assistance (ICA) programs. The ICAS report to HCFA twice per year with a broad overview of
their activities and use of HCFA funds. However, these groups do not report in a formal routine
way to the regional offices on beneficiary concerns related to managed care or the performance of
specific managed care plans.

The ICAS work directly with individual beneficiaries to resolve problems that they encounter in
obtaining Medicare services. Staff of the ICA programs with whom we met reported that they are
receiving greater numbers of beneficiary concerns around managed care. One group estimated
that 40 to 50 percent of their work involved managed care. The ICAS work to resolve beneficiary
problems by working on a case-by-case basis with health care providers.

The ICAS typically are part of a State Office on Aging or State Insurance Department. Regional
offices work with the ICAS in two primary ways. First, an ICA may contact staff in the regional
office to help resolve a beneficiary’s specific case or problem with a managed care plan.
Sometimes the regional staff may intervene with a plan as part of this resolution.

Second, regional office care staff reported that they try to speak at ICA meetings to discuss
Medicare managed care and to address concerns that may have been raised. One important
component of this outreach is to ensure that beneficiaries and the ICA volunteers and staff are
aware of beneficiaries’ rights under managed care.




                                                  11 

In this report we raise fundamental concerns with HCFA’S primary approach to oversight of
Medicare managed care plans. That approach revolves around one formal site visit conducted
every two years. We raise concerns about the efficiency and adequacy of this approach as a way
of monitoring plan performance in a rapidly changing environment. Medicare contracts with an
expanding number of plans, beneficiaries continue to enroll at a rapid rate, and the managed care
markets and the structure of plans themselves are constantly evolving. Yet, the current approach
has no formal mechanisms to keep up with plan activities between reviews, nor is it sufficiently
flexible to respond to the changes in the market place or even to the characteristics of specific
plans and the differences among them.

We recognize that HCFA is taking a number of steps that could enhance oversight of managed
care plans. For example, the implementation of the HEDIS measures, the new consumer
assessment of health plans, and the agency’s work with national accrediting bodies provide major
opportunities to improve oversight of managed care plans. At the same time, however, we
conclude that more must be done to afford sufficient protections to Medicare beneficiaries.

Our recommendations focus on two broad themes. One set of recommendations urges the
agency to revise the approach that it currently uses to monitor the performance of managed care
plans, to make that approach more flexible and responsive to the current reality of the managed
care market place. The second set urges HCFA to make better use of data as a key element for
ongoing contact and oversight of plan activities. We believe such an approach is essential if the
agency is to keep abreast of managed care plans’ performance. The demands and challenges of
the new Medicare+Choice program make steps such as these even more critical.

We also emphasize that oversight of managed care plans requires staff with the appropriate
training and analytical skills. Our companion report, Implications for Regional Staffing (OEI-Ol-
96-00 19l), addresses this issue in detail; in that report we make recommendations regarding
HCFA’S staffing and training needs.

WE RECOMMEND THAT HCFA REVISE THE PROCESSES THAT IT USES TO MONITOR THE
PERFORMANCE OF MANAGED CARE PLANS.

The HCFA‘s oversight processes should pay greater attention to capturing information     that
reflects plans ‘performance in the constantly evolving managed care market.

Many managed care plans rely on widespread network models to deliver services. In network
models, the actual delivery of services, decisions regarding coverage, and utilization management
may be contracted out to providers at some distance from the managed care plan that bears
overall responsibility for providing care to beneficiaries. Yet current monitoring of managed
care plans rarely includes review of these widespread entities. We believe that it would be
prudent for the agency to include a more in-depth examination of delegated contractors as a
formal part of the review process. One option might be to include a review of records from and


                                                12
interviews with a representative sample of delegated providers in network model plans.

The increasing numbers and scope of mergers and affiliations taking place among managed care
plans presents a second challenge for HCFA'S oversight processes. We believe that the agency
needs to pay attention to where responsibilities lie when plans merge. For example, HCFA may
need to assess how problems found in one plan are being corrected when that plan has merged
with another company. One option is instituting some type of formal review of Medicare
operations in the new entity at an appropriate point following the merger, say 3 or 6 months. In
addition, we encourage the agency to be sure that sufficient attention is paid to the implications
of mergers and affiliations prior to their actually taking place.

We also are concerned about oversight of new types of organizations providing managed care
services. For example, the recently enacted Balanced Budget Act of I997 authorizes the
participation of provider sponsored organizations (PSOS) in the Medicare program.* The PSOS
may be subject to little State regulation or certification, so monitoring these new entities will
pose fresh challenges to the agency. We believe that HCFA needs to pay close attention to these
and other new arrangements to ensure that they meet requirements for participation in Medicare.

The HCFA ‘s oversight processes should provide greater flexibility   to target reviews on the
specific characteristics of individual plans.

We believe that HCFA should consider how its oversight function can be enhanced by designing
a protocol and approach that take into account key differences among plans. For example, risk
plans have a quite different financial arrangement than cost plans, with the potential for adverse
economic incentives based on their payment mechanism; yet the monitoring protocol does not
differentiate between these types of plans. As we note above, IPAS may bear further inquiry into
the specific implications of their organizational arrangements than do group or staff model plans.

We also believe that flexibility may be warranted as a way to assessthe progress being made by
managed care plans with new contracts. For example, current processes call for the agency to
conduct a monitoring visit 6 to 9 months after awarding a contract, to ensure that the new plan
understands and is meeting Medicare requirements. Following that initial visit, HCFA staff do not
conduct a second monitoring review for another two years. Yet, in many cases plans may not
have a large enrollment in the first few months; it may well be appropriate to conduct a follow up
visit at the point at which a plan reaches a certain critical mass, for example, 1,000 or 5,000
members.

WE RECOMMEND THAT HCFA TAKE BETTER ADVANTAGE OF DATA THAT ARE CURRENTLY
AVAILABLE TO THE AGENCY AS A WAY OF MONITORING PLAN PERFORMANCE ON AN ONGOING
BASIS.

In examining data, we suggest four basic types of analyses that HCFA staff could undertake as a
way of informing the agency for oversight purposes:

   b   Internal trends in plan performance over time. This would let HCFA identify changes


                                                13 

       within a plan that may indicate concerns that HCFA should help the plan address.

   k 	 Plan performance compared with regional norms. This comparison will let HCFA
       determine how plans compare with other plans in the region for which it has oversight
       responsibility.

   b 	 Performance of plans compared with other plans in the local market area. This provides a
       more refined comparison, taking analysis to the local market area.

   b 	 Performance of plans compared with national norms. While there may be explainable
       local differences, HCFA also needs to assess the plans within national norms and
       expectations.

The HCFA should immediately establish and implement a centralized information        system that
aggregates the results of plan monitoring reports in electronic format.

Although the monitoring protocol has its limitations, in the short run it remains the primary tool
through which HCFA assessesthe performance of managed care plans. Consequently, we believe
it essential that HCFA have aggregate data on these reports to provide national accountability for
the program. In an era of ready access to electronic formatting, there simply is no reason that the
information from these reviews should not be made immediately accessible to beneficiaries and
the public, to members of Congress, and to agency managers.

We envision a system similar to the On-Line Survey Certification and Reporting System (OSCAR)
that yields information on surveys for hospitals, nursing homes, and other institutional providers.
We believe that the simplest way to implement such a system would be for regional staff to enter
the results of their reviews into a system immediately upon completion of their monitoring visit.

We see four important advantages for such a system. First, it will enable HCFA to readily monitor
each plan’s performance. Second. it will enable HCFA to identify overall areas of concern in
managed care plans’ operations. This information can help the agency identify broad problems
that need to be addressed nationally. Third, it will inform the agency about regional variations in
performance among health plans and among regional offices. Fourth, this information will
provide an important starting point for assessing the protocol instrument itself.

The HCFA should immediately establish and use a system to track beneficiary inquiries and
complaints that the agency receives regarding managed care.

Several regions already track these data . We believe that it is a key source of information that
regional staff should use routinely to identify specific plans or issues that merit closer
examination. The system needs to be plan specific and issue specific. We believe that it should
be maintained in electronic format so that current issues and trends may be examined, both
locally and nationally. The system should include fields for general inquiries about managed
care, as well as specific concerns and problems regarding particular plans. The HCFA established
the Beneficiary Inquiry Tracking System (BITS) with this as one goal. But that system is slow



                                                14 

and cumbersome. We believe that HCFA needs to use a tracking system that is manageable and
easy for regional staff to use. Our goal is to have in place a system to track and analyze this
important source of data.

The HCFA should provide monthly reports to regional offices on enrollment, disenrollment,
and rapid disenrollmen t.

In 1995, we recommended that HCFA track disenrollment rates over time to detect potential
problems among HMOS and that the agency use adjusted disenrollment rates to target reviews of
HMOS.~ We continue to believe that this is an important aspect of plan operations that HCFA
regional offices should monitor routinely. Many regions are already tracking these data on their
own, but we found, among other problems, that there is no standard definition of what constitutes
rapid disenrollment. It would be more efficient and accurate for HCFA centrally to provide these
data to the regions in a format that permits the regional offices to analyze them over time.

The HCFA should require that information, counseling, and assistance programs report
routinely to central office and to regional offices on managed care issues.

The HCFA provides financial support for information, counseling, and assistance programs. We
believe that they are an important resource that the agency could tap for additional information
about plan performance. The HCFA could provide a reporting format for these grantees on
managed care, which should be plan specific and issue area specific.

The HCFA should take full advantage of new data that it is collecting, such as HEDIS and
CAHPS,for oversight purposes.

The HCFA is now collecting beneficiary-level data through HEDIS and CAHPS. The agency plans
to make plan-specific data from these surveys available to the public as a way to help
beneficiaries choose among health plans. These data also can be used as part of a data-driven
monitoring system to identify concerns about plan performance.

The HCFA should require health plans to routinely submit data on appeals and grievances.

In 1996, we recommended that HCFA require managed care plans to report data on appeal and
grievance cases, including the number of cases; the number resolved internally and externally,
and their outcome; issues involved in cases; and time needed to resolve cases.” We believe that
these recommendations are still appropriate.




                                               15 

We received comments on the draft report from the Health Care Financing Administration
(HCFA). In this section, we address issues that the agency raises in those comments. Below we
summarize the major thrust of the agency’s comments regarding our recommendations, and we
offer our response in italics. We present the full text of HCFA'S comments in Appendix A.

Oversight of plans in the constantly evolving managed care market.

The HCFA concurs with the intent of our recommendation.

The agency indicates that its Region IX office (San Francisco) is paying specific attention to
ways that managed care organizations delegate responsibilities to provider networks with which
they contract. Delegated activities include utilization review, medical coverage determinations,
and other activities normally operated by a plan itself. This regional office has developed a
process that managed care plans can use to oversee delegated activities. The HCFA notes that it
will evaluate the effectiveness of this process. we urge HCFA to COntinUe    ClOSe examination of

delegated arrangements. We believe that all regional offices need to pay close attention to such
arrangements. Should the special monitoring effort underway in Region Hprove effective, the
agency may wish to incorporate this approach into its national monitoring protocols.

The HCFA notes that it evaluates mergers and acquisitions of health plans to assess compliance of
new entities with Medicare requirements. The agency sees no reason for a standard review of
these transactions at this time. We are pleased that HCFA is reviewing mergers and acquisitions
prior to giving its approval. We continue to believe that the agency should review Medicare
operations of these newly formed entities shortly after the merger has taken place, rather than
waiting for the full two-year cycle between scheduled monitoring visits.

The HCFA reports that it is revising its current monitoring processes. The objective is to establish
better methods for targeting performance issues within plans and for establishing quality
improvement goals. We believe that these revisions are a positive step forward. We note that
the agency is now circulating a draft of a revised monitoring guide. This draft includes, for
example, new language addressing review of delegated activities, such as those described above.
We also encourage use ofperformance data to establish improvement goals. We will continue to
work with HCFA to assess implementation, progress, and results.

Making better utilization   of available data

The HCFA concurs with our recommendation.

The HCFA cites its development of a Health Plan Monitoring System (HPMS). The agency notes
that much of the information gathered under the HPMS will be included in an electronic
comparison chart on HCFA'S home page. The development of the HPMS is a positive step, and we
urge the agency to move forward as rapidly as possible with implementing this management



                                                 16 

information system. We must note, however, that the Medicare Compare electronic data base is
limited to a description and comparison of plan coverage, benefits, and premiums. Although an
improvement over previously available information, Medicare Compare does not yet include any
plan performance data, nor results from the monitoring review. We recognize that the Medicare
Compare data base is in the early stages, Version 1. But more can be done to include quality
andperformance indicators in that data base.

The HCFA notes that the Balanced Budget Act requires managed care plans to disclose grievance
and appeal information when requested by beneficiaries. We urge the agency to be even more
proactive and include this information in the Medicare Compare system. Because managed care
plans are required to make this information available to individual benejiciaries, HCFA could
also coordinate the release of this information through its public data base.

The agency reports that it has developed an electronic database for aggregating and reporting
information from monitoring reviews. We are pleased that HCFA has developed such a data
base. We believe that it is an essential tool for conducting effective oversight of managed care
plans. As described by the agency, such a system can serve two functions: One function is to
ensure appropriate scheduling around the review process. Certainly this is an important task in
managing the workload associated with monitoring plan performance. The second-and in our
view more critical-purpose    of such a system is to assess and analyze the ongoing performance
ofplans. We urge HCFA to ensure that this latter goal of analysis receive attention that is
commensurate with, tfnot greater, than the scheduling uses.

The HCFA reports that it has developed a new system to track beneficiary inquiries and
complaints. In our draft report, we had recommended that the agency establish and use regional
systems to perform this task. Because, as the agency notes, a single system should decrease
conjusion and lack of comparability among the regions, we are revising our recommendation to
rejlect that approach. So long as the new tracking system is easy to usefor the regional staff--if
it avoids the cumbersomeness qf the old Benejiciary Inquiry and Tracking System (BITS), it will
go a long way towards providing a national capacity and data base.

We also are encouraged that HCF.-Iwill be taking advantage of the HEDIS and CAHPSdata as part
of its monitoring system. These data will be sure to shed important light on plan performance.

Technical comments

The HCFA provides two technical comments. One comment relates to our concern about the
monitoring approach not accounting for differences between risk and cost-based plans. The
agency points out that the Balanced Budget Act of 1997 prohibits new cost contracts and requires
that existing cost plans may be paid on that basis only through 2002. The second technical
comment discusses the requirements of the Balanced Budget Act that phases out the opportunity
for beneficiaries to disenroll from plans on a monthly basis, substituting instead a longer lock in
period. We reference these points in notes accompanying the appropriate text. Yet we also
believe that until these changes have been actually implemented, both issues we iden@ are
concerns to which the agency shouldpay some attention.


                                                17 

          AGENCY COMMENTS                    ON THE DRAFT REPORT


This appendix contains the complete set of comments from the Health Care Financing
Administration on this report, as well as a companion report, “Medicare’s Oversight of Managed
Care: Implications for Regional Staffing,” (OEI-0 l-96-00 19 1).




                                            A-l
        DEPARTMENT   OF HEALTH     & HUMAN    SERVICES                   tiealth Care Financing Administration


                                                                         The Administrator
                                                                         Washington, D.C.    20201




DATE:

TO: 	          June Gibbs Brown
               Inspector General

FROM: 	        Nancy4nn Min DeParle WI0
               Administrator

SUBJECT: 	 Office of Inspector General (OIG) Draft Reports: “Medicare’s Oversight of
           Managed Care-Monitoring Plan Performance,(OEI-Ol-96-00190) and -
           Implications for Regional Staf&g, (OEI-Ol-9640191)”

We reviewed the above-referencedreportsthat addressthe Health Care Financing
Administration’s (HCFA’s) oversight of managedcare plans and staffing in the regional
managedcare units. The reports found that although HCFA has madea strong
commitment to increasestaf5ng for managedcare oversight, its oversight approach is not
structuredto keep pace with the rapidly evolving managedcare market and the majority
of regional office (RO) staff doesnot have managedcare, data analysis, or clinical
backgrounds.

Our approach to improve managedcare oversight is aimed at full compliance with the
President’s Health Cure Consumers ’ Bill of Rights. Particularly noteworthy is our
development of the Health Plan Monitoring System(HPMS). This systemwill
consolidate data obtained from monitoring reviews including: quality of care; beneficiary
satisfaction; enrollment and disenrollment; appealsand grievances;benefits and
premiums; and physician incentives, amongother areas. Much of the information
gatheredunder HPMS will be included in an electronic consumercomparison chart know
as“Medicare Compare” that will be available to beneficiaries, health insurance
counselors,and the general public on HCFA’s home page. We believe that HPMS, along
with other initiatives describedbelow, will improve our current health plan monitoring
regime and ensureprogresstoward full Bill of Rights compliance.




                                             A-2 

                                                                                          2

HCFA concurswith the intent of all of the OIG recommendations. Our detailed
commentsare as follows:



HCFA should revise the processesthat it usesto monitor the performanceof managed
careplans.


We concur with the intent of the recommendation. HCFA’s Region IX has paid specific
attention to the delegation of managedcareresponsibilities that occurswhen contracting
companiesallow provider networks to conduct utilization reviews, make coverage
determinations, and operateother activities normally conductedby the health plan itself.
This contractor activity hasresulted in a monitoring processfor contracting companiesto
usewith the provider networks. HCFA will evaluatethe effectivenessof the processto
determine if it will require a similar approachfor all contracting companieswho delegate
activities.

HCFA evaluateseachmerger and acquisition to ensurethat the new entity complies with
requirementsfor eligibility. HCFA also identifies problemsthat will affect the operation
of any contract following the merger, and will delay its approval of any merger where it
is clear that compliance with contracting requirementswill be affected by a merger.
Under all circumstances,the merged company is always required to meet requirements.
Reviews occur on an ad hoc basis and HCFA seesno reasonto develop a standardreview
processat this time. For example, HCFA is currently in the processof determining the
effects of the merger betweentwo of HCFA’s largestMedicare managedcare contractors:
FHP, Inc. and Pacificare, who serveover 608,000 Medicare beneficiaries. An extensive
site visit was conducted, and corrective actionswill be required where applicable. At the
same.time,a large insurer purchasedthe assetsof a contracting health maintenance
organization (HMO) with 8,000 Medicare membersto form a mergedcompany with a
Medicare line of business. In this case,HCFA reviewed the pro forma financial
statementsalong with the plan for the organization of the mergedcompany. No further
evaluation was necessaryin this case.

Under the current process,HCFA reviewers use a review guide which stipulates all
requirementsfor contracting health plans. Methods of evaluation contained in the guide
dictate the methods that reviewers should useto review eachspecific requirement. In
addition, standard operating proceduresdefine the kinds of reviews that regional
reviewers can use to conduct monitoring operations. Theseare full biennial reviews
conductedevery 2 years, post contract site visits conductedwithin the first year of  --
contract operations, and focused reviews conductedat any time to determine compliance

                                          A-3
                                                                                         3

with specific areasof operations. In addition, HCFA conductsformal investigations with 

contractedconsultantswhenever there is a needfor intensive review of multiple areasdue 

to poor overall performance. 


HCFA, however, is revising the current monitoring process. First, HCFA will add new 

items to the guide, aswell as evaluateadditional changesto the methodsof evaluation. 

Changesto the methodsof evaluation will considerthe types of review activities that are 

required for different types of managedcare organizations. Second,HCFA will devise 

better methodsfor targeting performance issueswithin health plans. Third, HCFA will set 

a direction for use of continuous quality improvementgoalswith eachhealth plan on a 

periodic basis. HCFA has obtained the servicesof a consultantwho wiIl provide 

recommendationson the overall directions of the monitoring program. The new approach 

will consider the use of performance data to establishgoalsfor health plans on an annual 

basisso that health plans are required to improve over eachyear’s performance. This 

approachis similar to the approachused by commercial employer groupsto contract only 

with health plans that are capable of meeting higher goals. 


OIG Recommendation 

HCFA should take better advantageof data that are currently available to the agency as a 

way of monitoring plan performance on an ongoing basis. 



We concur and are taking stepsto ensurethat the data collection processand reporting of 

appealsand grievanceinformation are both meaningful to consumersand fair to plans. 

HCFA has already received data from Health Plan Employer Data and Information Set 

(HEDIS) 3.0 and is beginning to analyze them. HCFA is initiating activities to analyze 

plan-submitted disenrolhnent rate data. In addition to the ConsumerAssessmentof 

Health Plan Survey (CAHPS) mentioned in the Executive Summary,other activities are 

underway to capturebeneficiary disenrollment reasondatafrom the regions, the Social 

Security Administration, and plans. HCFA is alsoworking to further define the type of 

datawe will needto collect to gain additional information about plan performance. 


HCFA is in the processof planning the developmentof a Health Plan Monitoring System 

(HPMS). This project will consist of the establishmentof a databaseand the 

developmentand deployment of client/server applicationsto provide HCFA central and 

regional office staff with accessto information in the databasefor the purpose of plan and 

program oversight. The HPMS will provide HCFA with accessto quality of care 

measuresfrom HEDIS, financial data.,beneficiary appealsinformation, beneficiary 

satisfaction data from CAHPS, physician incentive data, and benefits/premium and 





                                          A-4 

                                                                                            4

membercost sharing data. Someof the information from the HPMS will also be included
in a consumercomparison chart which will be made available to the public through the
Internet to ahow beneficiaries to make informed choicesof plans.

Regardingthe collection and consistentreporting of accurateappealsand grievancedata,
HCFA has securedthe servicesof an impartial, independentcontractor to reconsider
denial determinations and to perform the necessaryfunctions associatedwith this activity.
The contractor’s servicesinclude data reporting activities suchasthe onesrecommended
by OIG. In addition, section 1852(c)(2)(C) of the BalancedBudget Act of 1997 (BBA)
requires Medicare+Choice (M+C) plans to disclosethe following data upon requestby
M+C eligible individual: (1) information on the number of grievances,determinations,
and appeals,and (2) information on the disposition in the aggregatebf such matters. By
requiring plans to collect and disclose internal plan-level data,the BBA lays the
groundwork for this form of data collection by HCFA.

HCFA has devised an electronic databasefor aggregatingand reporting information
obtained from monitoring reviews. This databasecontains information on the number of
monitoring reviews that are conducted, the frequency of the monitoring review, the
timeliness of the report of review fmdings to the health plan, aswell asthe individual
findings. The databasecan provide reports on a national, regional, or statebasis so that
the variations in performanceand the types of review findings can be reported. In
addition, HCFA will learn the most common problems, aswell asprovide trend data on
eachplan asreview findings are entered.

At the current time, the Regional Office SystemsWorkgroup operatesas a user’s group
that modifies and provides direct data support to its regional office monitoring reviewers.
The group facilitates the useof all available data by sharing programming and software
programsthat manipulate available data. The group meetsmonthly via conferencecalls
to addressnew ideas or questionsabout data or programming issuesfor all regions.
Depending on their capabilities and needs,individual regions make use of the datareports
that are developedby the Workgroupfor monitoring the health plans in their region.

On a much larger scale,HCFA is establishing the HPMS. This new systemwill
consolidate data obtained from monitoring reviews, emolhnent and disenrollment,
reconsideration, lEDIS and CAHPS, aswell asbenefit and premium information.
HCFA’s goal is to design a systemthat provides data that are available for monitoring
health plan operations. HPMS will also provide reports that will be useful for trend
analysis or health plan comparisons. HPMS will identify outhers, aswell as provide
indicators for HCFA inquiries regarding plan performance.

As noted in the report, not all regions are using the Beneficiary Inquiry Tracking System


                                            A-5
                                                                                             5

(BITS). HCFA believes that it is necessaryto establish a single systemto track inquiries
and complaints. Allowing eachregion to establishits own systemwill lead to confusion
and a lack of comparability betweenregions. To this end, HCFA has designeda
computer systemto receive, track, and report about beneficiary inquiries. As soon as
programming is complete and the overall systemput in place, HCFA will usethis system
for tracking Medicare beneficiary inquiries.

HEDIS and CAHPS data will receive significant scrutiny under HPMS. Thesedata will
not only becomepart of the data releaseto the public in the comparability chart, but will
also become a significant part of the monitoring processin terms of identifying outliers
and also in terms of setting goals for continuous improvementin health plan performance.
              “     .   .                          9,
OIG R;.                                                 (OEI s01 - 96 - 0019l)

HCFA should develop, coordinate, and provide a comprehensivetraining program for
regional office staff with responsibility for oversight of managedcare plans.


We concur. HCFA initiated a two-part training program in July 1997. First, HCFA
implemented a basic training program which is aimed at new staff. This 5-day program
provides a description of basic regulatory requirements,aswell as the application and
monitoring processand procedures. In addition, the program describesthe major
componentsof review for any health plan for either the application or the monitoring
reviews. The secondpart of the training program will include advancedtraining for
personswho have completed the basic program. This specialty training will focus on
elementsof review for five separatespecialty review areas. Theseare: legal, health
servicesdelivery, quality assurance,fiscal soundnessand insolvency, and Medicare
operations.

HCFA also conducted regular training on new issuesduring 1997. In the pastyear,
HCFA staff conducted training on point-of-service, visitor affiliate, and flexible benefit
products, aswell as expedited appealsand the new marketing guidelines. This type of
training has occurred not only in individual Picturetel sessionsbut also during HCFA’s
annual regional office/central office HMO conference. Training for expeditedappeals
occurred at five different conferencesthroughout the nation to accommodateboth
regional staff and industry personnel.


As HCFA increasesstaff in its managedcare operations in the regional offices, we
recommendthat the agency seekout people with experiencein managedcare, data             -
analysis, and clinical expertise.

                                            A-6
                                                                                        6


HCFANzqumsz

We concur. HCFA has transitioned a number of staff in the regional offices to managed 

careactivities. Whenever possible, HCFA will identify staff with special analytical 

skills, aswell as clinical and managedcare experience. In central office, HCFA’s 

reorganization has brought a significant changein the amount of resourcesthat are 

currently addressingmanagedcare issues. Previously, the Office of ManagedCarewith 

its staff of approximately 150 personsoperatedthe managedcareprogram. With the 

reorganization of HCFA, the number of personswith responsibility for managedcare 

issueshas significantly expanded. For example, data analysis activity hasbecomethe 

major focus of one division. Previously, HCPA had no organized componentresponsible 

for ongoing analysis of managedcare data. Two other changesinclude the transfer of 

quality assuranceissuesto the Office for Clinical Standardsand Quality and the transfer 

of beneficiary issuesto the Center for Beneficiary Services. The latter two changeswill 

bring together individuals with clinical skills for review of managedcare quality issues 

and will bring increasedvisibility to issuespresentedto HCFA corn advocacygroups 

who will communicate and coordinate their activities with the Center for Beneficiary 

Services. The two changeswill begin to more readily identify and define quality issues 

and beneficiary issuesfor review during the monitoring process. As the components 

refine their managedcare responsibilities, their counterpartsin the HCFA regional offices 

will conduct their operational responsibilities with the health plans in their regions. 



HCFA should develop a pilot program to provide opportunities for staff developmentand 

staff sharing with managedcare plans and with beneficiary advocacygroups. 



We concur with the intent of the recommendation. For example,HCFA provided 

rotational positions for 4 weeks to six personsfrom the American Association of Health 

PlansMinority Management DevelopmentProgram. HCFA subsequentlyhired four of 

thesepersonsbecauseof their managedcare experience. HCFA makesuse of the 

Presidential Management Intern Programin order to place personsin training assignments 

in the managedcare industry. The interns are employed in both the central office, aswell 

asthe regional offices. In addition, HCFA hasplaced other personsin HCFA 

managementtraining programs in managedcarecompaniesfor rotational assignments. 

HCFA will continue to seekopportunities for staff for thesetypes of rotational 

assignments. The broadening of managedcareresponsibilities resulting from HCFA’s 

reorganization will allow HCFA staff to identify training opportunities that will provide 

specific experiencesthat will complementtheir skills and knowledge. 


HCFA is committed to allowing the rotational assignmentsto occur wheneverpossible. 

However, our concern with the recommendationis that HCPA has information on 



                                          A-7
                                                                                          7

currently contracting plans and on new applicants that is confidential in nature. If
employeesof managedcare plans and advocacygroupsworked in HCFA for several
months,they might have inappropriate accessto this confidential information. If such a
training/exchangeprogram were to be initiated, we would needto be surethat the
confidential information is not accessibleto non-Federalemployeeswho are working as
HCFA staff.

                          (OFT- 01B96So00191)
At the top of page 6, the report statesthat the review protocoi doesnot differentiate
betweenplans paid on a risk basisversusthose paid on a cost basis. This is mentioned
againon page 14, in the first paragraphof the recommendation. Pleasenote that the BBA
provides that: (1) no new cost contractscan be signed; and (2) current cost contracting
managedcareplans can continue under the cost option only through 2002.

At the bottom of page 6, the report statesthat HCFA staff useddata on a plan’s rapid
 disenrollment rate to focus the on-site review on the plan’s salespractices and incentives,
which led to requirements that the plan take corrective action. On page 16, in the second
recommendationon that page, the report statesthat OIG hasrecommendedin the past that
HCFA use disenrollment rates to target HMO reviews. We note that, during deliberations
 on both the 1995 and the 1997 budget reconciliation bills (which included lengthier
“lock-in’ provisions), HCFA has stressed:(1) the value of monthly disenrolhnent as a
meansfor identifying plans with high disenrollment rates; and (2) the use of high
disenrolhnent rates as a trigger for more focused plan review to identify problems causing
beneficiaries to disenroll at high rates. In spite of HCFA’s strong support for retaining
monthly disenrollment, the BBA placesconstraintson beneficiary options to d&enroll.
Specifically, the current monthly disenrolhnent policy is retained through 200 I.
However, beginning in 2002, beneficiaries will be locked-in for longer periods of time:
6 months in 2002, and 9 months thereafter. After 2001, monthly disenrolhnent does
remain an option for newly eligible beneficiaries during the first 12 months of enrollment
in a plan.




                                            A-8 

                                     ENDNOTES
1. Health Care Financing Administration, Medicare Managed Care Contract Report,
December 1994 and August 1997. The data shown cover only risk plans, cost plans, and
health care prepayment plans. Beneficiaries also may enroll in demonstration projects, such
as the Social Health Maintenance Organization.

2. 	 An additional form of managed care, Health Care Prepayment Plans (HCPPs) are paid in a
similar manner as cost plans but do not cover the Medicare Part A services.

3. Under the terms of the Balanced Budget Act of 1997, cost-based plans are being phased
out. No new cost contracts may be signed, and current cost contracting plans can continue
under the cost option only until 2002.

4. 	 For some years, senior HCFA officials have considered moving to a more frequent review.
The agency, however, has not implemented this change. See, for example, HCFA
Administrator Bruce C. Vladeck, “Testimony before the Special Committee on Aging, U.S.
Senate,” August 3, 1995.

5. The HCFA issued new regulations on appeals processing on April 30, which means plans
likely will encounter even more difficulty with appeals processing as these changes are
implemented.

6. Department of Health and Human Services, Office of Inspector General, Medicare Risk
HMO Performance Indicators, OEI-06-91-00734, October 1995. It is important to note, that
under the Balanced Budget Act of 1997, the current disenrollment policy is retained through
2001. Beginning in 2002 beneficiaries will be locked-in for longer periods of time: 6 months
in 2002, and 9 months thereafter. New enrollees will be able to use monthly disenrollment
during the first 12 months of their enrollment in a plan.

7. Our companion report, Medicare’s Oversight of Managed Care: Implications for
Regional Staffing, OEI-0 l-96-00 191, addresses this issue in more detail.

8. Social Security Act 6 1855 (d).

9. Department of Health and Human Services, Office of Inspector General, Medicare Risk
HMO Performance Indicators, OEI-06-9 l-00734, October 1995.

10. Department of Health and Human Services, Office of Inspector General, Medicare HMO
Appeal and Grievance Processes: Overview OEI-07-94-00280, October 1995.




                                          B-l
